5

!

4

Appendix

i

Appendix A
Judge Sand ruling Gerald Aranoff v TIAA March 6, 2009

!
!

t

6
!
\

Appendix A
Judge Sand ruling Gerald Aranoff v TIAA March 6, 2009

!
i

1
I

i

i;

- cjsjg?- Q

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

'207

x

mh
KM
SOUTHERN DISTRICT OF NEW YORK
_____

________________________ X

>

GERALD ARANOFF,

GERALD ARANOFF,
CIVIL

Plaintiff,

Plaintiff,

JUDGMENT

2076

ORDER OF DISMISSAL

-against-

•against-

TEACHERS INSURANCE AND ANNUITY
ASSOCIATION COLLEGE RETIREMENT
EQUITIES FUND.

TEAI HERS INSURANCE AND ANNUITY
ASSOCIATION COLLEGE RETIREMENT
EQUITIES FUND,

Defendant.

Defendant.
X
Pursuant to the order issued

MAR 0 6 2009

by the Honorable Leonard B.

Plaintiff, appearing pro se and having paid the requisite filing fee, brings this action
againsthis pension'.fund''alleging violation of the Employee Retirement Income Security Act of

Sand, United States District Judge, dismissing the complaint, it is.

1974 (“ERISA”), 29 U.S.C. § lOQl et seq. Specifically. he claims that defendant is paying-55%
of his pension to his ex-wife, Susan Aranoff, pursuant to a state court order in violation oifU»

c-

dismissed. Fed. R. Civ. P. 12(b)(1) and 12(h)(3). The Cpurt.certifies pursuant to-2S .U.S.C: §

ERISA. Plaintiff seeks a court order directing defehdatit to slop further payments an^,fo:

'-p

19i5(a)(3) that any appeal from the Court's order would notTreJdken in goodj

reimburse all;monies previously submitted to his .ex-wife. For the following: reasons'^]aindff s"c r^

ORDERED, .ADJUDGED AND DECREED: That the complaint be and it is hereby

complaint is dismissed.

Dated:

MAR 0 5 2009

New York, New York

THIS DOCUMENT WAS ENTERED ON THE DOCKET ON

2 §3
is-' :§

g

r'; % 1

Plaintiff, a resident of Israel, brings this complaint as part ofhis ongoing efforts to
■'.'F

r-.‘

^

background

(/ LEONARD B, SAND
United States District Judgc^ pi
—f-b'
F

§

overturn .a Quali fied Domestic Relations Order (“QDRO”) issued by the Flew York Supreme
Court, Kings Coimty, to enforce his child support obligations. Plaintiff and his ex-wife were
divorced by foreign decree on February 17. 1993, On October 17, 1997, a QDRO was issued.in
the matrimonial action by the New York Supreme Court, Kings County, establishing child
support payments. Aranoff V. Aranoff. 682 N.Y.S.2d 622 (N.Y. -App. Div; 1998), Tfre/QDRO
directed plaintiff’s,pension fund to pay his ex-wife 55% of the benefits payable underhis annuity
contracts. Id. Plaintiff appealed the order contending that it was invalid and in violation of
ERISA. On December 14,1998. the New York Supreme Court, Appellate Divisiom affirmed the
order: Id, The.New York Court of Appeals dismissed plaintiff s subsequent motion toappeal on

i

July 8, 1999, ■'Aranoff v, Aranoff. 93 N.V:2d 1000 (N.Y, 1999). Plaintiff then sought relief in

complaints. This Goufl lacks subject matter jurisdiction over the instant action pursuant to the

No. 01 Giv. 2543

this Court by filifig.an action against defendant.

(MBM) (S.D.N.Y. Mar. 26, 2001). Byorder dated March 26. 2001, the Honorable Michael B.

263 U.S. 413, 415-16 (.1923) and District-of Columbia Court of Appeals v, Feldman; 460 US.

Mukaseft former Chief Judge of this Court, dismissed plaintiffs complaint.for lack of subject

■462, 482-86 fl9S3) (the “Rooker-Feldmah doctrine”) that a United States Disixict-Couftihas ho

matter jurisdiction, determining that both the Rooker-Peldman doctrine and the domestic

authority to review final judgments of a state couit in judicial proceedings, except for

relations exception to federal jurisdiction barred the Court from reviewing the state court’s

constitutional challenges and reviews pursuant to an application for a writ of habeas corpus?

QDRO.1 Id. On February 27, 2008, plaintiff submitted a second complaint to this Court, again

Here, althoughpiaintiff seeks to assert federal juiisdietion in the instant action by.ihvoking

seeking rebef from the state court order. By order dated April 1, 2008, the Honorable Kimba M.

ERISA, the.graVatnen of his claim continues to-be his dissatisfaction with the Qualified

Wood, Chief Judge of this.CoUrt, dismissed the complaint for the same reasons stated in Judge

Domestic Relations Order of the New: York Supreme Court, Kings County. He ,is essential ly

Miikasey’s order. See.Aranoff v. TIAA. No. 08 Ciy. 3260 (KMW) (S.D.N.Y. Apr. 1,2008). In

seeking to contestthe validity of the QDRO under Which defendant is required to make the

addition, the Court warned plaintiff thai the filing of new complaints seeking to overturn tlie state

payments at issue tphis ex-wife; To the extent; however; he seeks a review of the QDRO,-this

court’s QDRO .may result in the issuance of ah order barrihg the acceptance of any future

Court lacks jurisdiction under the.Rooker-Feldman doctrine. Plaintiff may not seek to relitigate

complaints from him without first obtaining leave of Court to file a new action. IdUndeterred, plaintiff now brings the instant action again seeking relief from the state .

factual issues decided by the courts of New York State under the guise of an ERISA Violation in
fois Court.

court’s QDRO. He alleges that the pension fund has failed to respond to his inquiries since he

Furthermore, plaintiff should also.nete that.foe domestic relations exception to fedcraj

'last received a letter dated November 17,2008. Plaintiff claims that many of the.state court’s:

jurisdiction would also,bar this Coiirlfrbfh Cdhsidcriiig plaihtiff’s claims. In Ankenbrandt v,

decisions were “bad one-sided rulings” and that defendant won’t respond to his inquiries fully

Richards. 504 U.S. 689* 112 S, Gt; 2206 (1992). the Supreme Court reaffirmed the continued

and honestly. He brings.this .instant.action against the pension fund in another effort to overturn

validity of the domestic relations exception, stating that the exception divests .federal courts of

the terms of the revised QDRO imposed by the state court.

jurisdiction “to issue divorce, alimony and Child custody decrees.’’ Id- at 703. To foe-extent the

DISCUSSION
Having reviewed the instant claims and accordingthem a liberal construction in light of

state court action falls'within the ambit ofcascs excluded by Ankenbrandt. this Court does not
.have jurisdiction. See American Airline s v. Block. 905 F.2d 12,14:(2d Gir. 1990): McArthur.v.

plairitifFspro se

Bell. 788 F. Supp. 706, 708 (E.D.N:Y. 1992).. The issues of child visitation rights, custody and

U.S. 948 (1972), the Court dismisses plaintiff s complaint for the same reasons as his prior

•divorce decrees are better left to the state courts which are more experienced in interpreting arid
applyingfoeir own domestic relations laws;

1 The Court notes that shortly after the dismissal of his first complaint in this Court against
his pension fund, plaintiff filed an action against his ex-wife in.thc United States District Court
for the .Eastern District of New York. See Aranoff v, Aranoff. No., 01 -cv-2469-EHN-MDG
(E.D.N.Y. Aug. 28, 2001). The complaint was eventually dismissed for lack of subject matter
jurisdiction. Id.
2

7 The Uhited.States Supreme Court is the only court that may give appellate review to a state
court's judicial decisions. 28 U.S.G § 1257(a).

Warning Against the Filing of Meritiess Complaints
Finally,-plaintiff is warned for the second time that this Court will not tolerate the
continued-filing of complaints seeking to overturn the state court's QpRO. The filing of ariy
future lawsuits arising out of the subject matter of the instant or prior actions may result in the
issuance of an order pursuant to 28 U.S.C. §: 1651 barring ti)e acceptance of any future:
complaints from plaintiff without first obtaining leave of Court to file a new action. See In Re

McDonald. 489 U.S. 180, 184 (1988). This second waniing is necessary in light ofplaintiff’s
£
failure to heed the Court's first warning against the continued filing of complaint.s;seeking review
of the state court’s QD.RO, resulting inthe abuse of uj dicial resources.
CONCLUSION
Thus* according this pro se complaint the close and sympathetic reading to which it is
entitled. Haines. 404 U.S. at 520-21, it reveals no basis for ihe/exercise of subject matter
jurisdictioriover the underlying suit. :Fed..R. civ. P. ]2(bX0 and;12(hX3). The complaint must
therefore bedismissed- See Fitzgerald v. First East Seventh Tenants Coro:. 221 F.3d 362. 363
(2d Cir: 2000) (per curiam) (holdingthat adistrict court may dismiss a frivolous complaint sua
sponte even when the plaintiff has paid the required filing feet: Pillav v; Immigration and
Naturalization Service,45 F.3d 14,16 (2d Cir. 1995), Although plaintifTpaid the requisite filing
fee to bring this action, the Court certifies pursuant to 28 U.S.C. §1915 (aX3 ) thafforthe
. piirpose of ah appeal, any appeal from this order would nol .be taken in good faith. See Coppedge
v. United-States. 369 U.S, 43 8, 444-45 (1962).
SO ORDERED

LEONARD B. SAND
United State District Judge

MAR 0 6 2009
Dated:
New York, New Y
. 4

